Review of NRC’s Administration of Selected
Contracts and Acquisition Workforce Training

     OIG-04-A-10    February 19, 2004



REDACTED FOR PUBLIC RELEASE
                            OFFICE OF
                     THE INSPECTOR GENERAL


                         U.S. NUCLEAR
                    REGULATORY COMMISSION


                  Review of NRC’s Administration of Selected
                 Contracts and Acquisition Workforce Training

                      OIG-04-A-10       February 19, 2004



                       AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                               NRC’s website at:
             http://www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                             February 19, 2004




MEMORANDUM TO:                William D. Travers
                              Executive Director for Operations



FROM:                         Stephen D. Dingbaum/RA/
                              Assistant Inspector General for Audits


SUBJECT:                      REVIEW OF NRC’S ADMINISTRATION OF SELECTED
                              CONTRACTS AND ACQUISITION WORKFORCE TRAINING
                              (OIG-04-A-10)


Attached is the Office of the Inspector General’s audit report titled Review of NRC’s
Administration of Selected Contracts and Acquisition Workforce Training.

This report addresses the NRC’s contract administration/oversight of selected contracts and
acquisition workforce training. The auditors found that NRC’s acquisition management was
generally adequate; however, opportunities for improvement exist. Specifically, guidance is
needed on (OUO Redacted) security guard services need increased monitoring. Additionally,
acquisition training for project managers is not completed timely and course content needs
improvement.

During an exit conference on January 15, 2004, NRC officials generally agreed with the report’s
findings and recommendations and provided comments concerning the draft audit report. OIG
incorporated those comments, as appropriate, into the report.

If you have any questions, please contact me at 415-5915 or Steven Zane at 415-5912.

Attachment: As stated

cc:     W. Dean, OEDO
R. McOsker, OCM/RAM
B. Torres, ACMUI
B.J. Garrick, ACNW
M. Bonaca, ACRS
J. Larkins, ACRS/ACNW
P. Bollwerk III, ASLBP
K. Cyr, OGC
J. Cordes, OCAA
E. Merschoff, CIO
J. Funches, CFO
P. Rabideau, Deputy CFO
J. Dunn Lee, OIP
D. Rathbun, OCA
W. Beecher, OPA
A. Vietti-Cook, SECY
W. Kane, DEDH/OEDO
C. Paperiello, DEDMRS/OEDO
P. Norry, DEDM/OEDO
M. Springer, ADM
J. Dyer, NRR
G. Caputo, OI
P. Bird, HR
C. Kelley, SBCR
M. Virgilio, NMSS
S. Collins, DEDR
A. Thadani, RES
P. Lohaus, STP
F. Congel, OE
M. Federline, NMSS
R. Zimmerman, NSIR
R. Wessman, IRO
H. Miller, RI
L. Reyes, RII
J. Caldwell, RIII
B. Mallett RIV
OPA-RI
OPA-RII
OPA-RIII
OPA-RIV
                            Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training


EXECUTIVE SUMMARY

         BACKGROUND
                   During FY 2002, the U.S. Nuclear Regulatory Commission (NRC) executed
                   procurement actions1 totaling $96.2 million. This included 1,026 contract actions
                   totaling $70.2 million and 1,119 purchase orders valued at $26 million.2 Agency
                   procurement of products and services is governed by the Federal Acquisition
                   Regulation and the NRC Acquisition Regulation.

         PURPOSE

                   The audit objective was to review the economy, efficiency and effectiveness of
                   NRC=s contract administration program. The audit focused primarily on:

                             (1) NRC management of selected contracts, and
                             (2) acquisition workforce training.

         RESULTS IN BRIEF

                   The review of NRC’s acquisition management3 practices for ten selected
                   contracts4 and acquisition workforce training found that NRC’s acquisition
                   management was generally adequate. Official Use Only Sentence
                   Redacted




                   NRC Management of Selected Contracts

                   Official Use Only Paragraph Redacted




         1
           The term procurement actions include initial contracts (including grants, cooperative agreements, and
interagency agreements excluding agreements with the Department of Energy), task orders, contract and task order
modifications, and purchase orders.
         2
          We previously reviewed NRC’s purchase order processing and issued memorandum report OIG-03-A-17,
dated June 9, 2003. That report concluded that NRC needs to maintain its current efforts to develop a single integrated
E-Procurement system rather than continuing to use overlapping stand-alone systems.
         3
             For purposes of this review, acquisition management refers to administration of the contract after award.

         4
          The ten selected contracts are listed in Appendix B. The FY 2002 obligations for the ten contracts amount
to $29.4 million, which represents 31 percent of the $96.2 million of FY 2002 procurement obligations.

                                                            i
            Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training

     Although the contract for security guard services provides that performance will
     be monitored through sample inspections, a review of the agency=s records
     disclosed that walk-around inspections are conducted only during regular
     business hours. No walk-around inspections were documented during non-
     business hours. This deficiency occurs because the agency has not established
     written inspection procedures that cover both business and non-business hours.
     Such limited monitoring of the guard services results in a heightened security risk
     at headquarters during non-business hours.

     Acquisition Workforce Training

     Contrary to the best practices of other Federal agencies, NRC permits its staff to
     serve as project managers prior to completing required training. NRC’s
     Acquisition Certification and Training Program mandates specific acquisition
     training for project managers and prescribes time frames within which the training
     must be completed. The mandatory training is frequently not completed within
     the prescribed time frames because of the lack of a central database to track
     training, inadequate monitoring, and infrequent course offerings. The course
     content of NRC’s project manager acquisition training also needs improvement.
     Specifically, the training materials for some courses are not comprehensive
     and/or contain certain information that is either obsolete or incorrect based on
     current FAR requirements. Consequently, the agency has an increased risk that
     improprieties in the acquisition process will go undetected.

RECOMMENDATIONS

     Official Use Only Paragraph Redacted




MANAGEMENT COMMENTS

     During an exit conference on January 15, 2004, NRC staff generally agreed with
     the findings and recommendations in this report and provided comments to clarify
     certain sections. We modified the report, as we determined appropriate, in
     response to those comments. Management chose not to provide written
     comments for inclusion in this report.




                                         ii
                Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training



ABBREVIATIONS AND ACRONYMS

    ADM         Office of Administration

    CFR         Code of Federal Regulations

    COI         Conflict of Interest

    Contracts   Division of Contracts

    FAR         Federal Acquisition Regulation

    GAO         U.S. General Accounting Office

    GS          General Schedule

    HR          Office of Human Resources

    IT          Information Technology

    MD          Management Directive

    NRC         U.S. Nuclear Regulatory Commission

    NRCAR       NRC Acquisition Regulation

    OFPP        Office of Federal Procurement Policy

    OGC         Office of the General Counsel

    OIG         Office of the Inspector General

    OMB         Office of Management and Budget




                                             iii
Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training




             [Page intentionally left blank.]




                             iv
                               Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training


TABLE OF CONTENTS

EXECUTIVE SUMMARY .................................................................................................. i

ABBREVIATIONS AND ACRONYMS ............................................................................. iii

I.          BACKGROUND .................................................................................................... 1

II.         PURPOSE ............................................................................................................ 2

III.        FINDINGS............................................................................................................. 2

            A.       NRC’s Acquisition Management Practices ............................................................. 2

                     A.1.      Title Redacted ......................................................................................... 2
                     A.2.      Security Guard Services Need Increased Monitoring ................................ 4

            B.       Acquisition Workforce Training............................................................................... 5

                     B.1.      Project Manager Mandatory Training is Not Completed Timely................. 5
                     B.2.      Course Content of Project Manager Acquisition Training Needs
                               Improvement ............................................................................................. 11

IV.         CONSOLIDATED LIST OF RECOMMENDATIONS........................................... 15


APPENDIXES

       A.        SCOPE AND METHODOLOGY ................................................................................. 17
       B.        CONTRACTS SELECTED FOR REVIEW ................................................................. 19
       C.        FEDERAL ACQUISITION REGULATION CLAUSES ............................................... 21
       D.        ACQUISITION CERTIFICATION AND TRAINING PROGRAM COURSES.............. 23
       E.        DEFICIENCIES IN TRAINING COURSES................................................................. 24




                                                                    v
Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training




             [Page intentionally left blank.




                             vi
                           Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training


I. BACKGROUND

                   During FY 2002, the U.S. Nuclear Regulatory Commission (NRC) executed
                   procurement actions totaling $96.2 million. This included 1,026 contract actions
                   totaling $70.2 million and 1,119 purchase orders valued at $26 million. The
                   following chart presents a breakdown of NRC’s FY 2002 procurement actions.


                                           FY 2002 Procurement Actions
                                                (Dollars in Millions)

                               Purchase Orders                                       Cost Type Contracts

                         $26.0 (27.0%)                                                $24.2 (25.2%)




                                                                                  Fixed Price Contracts
                                 Task Orders                                       $17.9 (18.7%)
                                $21.6 (22.4%)
                                                                Other Contracts
                                                                $6.5 (6.7%)
      Total Procurement Actions - $96.2 Million
      Excluding DOE Agreements


                   This report addresses the NRC=s contract administration/oversight of selected
                   contracts and acquisition workforce training.

                   Contract Administration/Oversight

                   Agency procurement of products and services is governed by the Federal
                   Acquisition Regulation (FAR)5 and the NRC Acquisition Regulation (NRCAR).6
                   FAR Part 42, AContract Administration and Audit Services,@ describes
                   responsibilities and functions for contract administration and contracting officers.
                   NRC Management Directive (MD) 11.1, revised January 17, 2003, ANRC
                   Acquisition of Supplies and Services,@7 establishes agency acquisition policy.


        5
            Title 48 Code of Federal Regulations (CFR) Chapter 1.
        6
          Title 48 CFR Chapter 20. The NRCAR is not, by itself, a complete document. It must be used in
conjunction with the FAR.
        7
           The MD includes an associated Handbook 11.1, which contains explanations, guidelines, procedures,
management controls for acquiring supplies and services, and provisions for fostering efficiency and economy in
contracting.



                                                         1
                  Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training

           The agency acquires a broad range of products and services, including technical
           assistance and research in nuclear fields, information technology (IT), facility
           management and administrative support. The Division of Contracts (Contracts)
           within the Office of Administration (ADM) develops and implements agency-wide
           contracting policies and procedures, directs and coordinates contracting activities
           for NRC, and provides advice, assistance, and oversight for program activities.
           Contracts/ADM is comprised of a procurement policy team and two contract
           management centers. The procurement policy team develops and implements
           agency-wide acquisition policies and procedures and oversees acquisition
           workforce training. The two contract management centers perform negotiation,
           award, administration and closeout of agency contracts, and other functions.
           During FY 2003, Contracts staff totaled 31, including 19 contracting officers and
           contract specialists.


II. PURPOSE

           The audit objective was to review the economy, efficiency and effectiveness of
           NRC=s contract administration program. The audit focused primarily on (1) NRC
           management of selected contracts and (2) acquisition workforce training.


III. FINDINGS

           The review found that NRC’s acquisition management was generally adequate.
           Official Use Only Sentence Redacted




     A. NRC’s Acquisition Management Practices

           The review found that NRC’s acquisition management practices for ten selected
           contracts found that management controls in this area are generally adequate
           however, opportunities for improvement exist. Official Use Only Sentence
           Redacted



           A.1.   Title Redacted

           Official Use Only Paragraph Redacted




                                               2
                  Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training


          Official Use Only Paragraph Redacted8




          Official Use Only Paragraph Redacted9




          Official Use Only Paragraph Redacted




          Official Use Only Paragraph Redacted




8
    Official Use Only Footnote Redacted
9
    Official Use Only Footnote Redacted

                                               3
                   Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training




Recommendations:

     OIG recommends that the Executive Director for Operations:

     1.     Official Use Only Paragraph Redacted




     2.     Official Use Only Paragraph Redacted




     3.     Official Use Only Paragraph Redacted




            A.2.   Security Guard Services Need Increased Monitoring

            Although the contract for security guard services provides that performance will
            be monitored through sample inspections, a review of the agency=s records
            disclosed that walk-around inspections are conducted only during regular
            business hours. No walk-around inspections were documented during non-
            business hours. This deficiency occurs because the agency has not established
            written inspection procedures that cover both business and non-business hours.
            Such limited monitoring of the guard services results in a heightened security risk
            at headquarters during non-business hours.

            The contract for security guard services provides that sample inspections be
            conducted to determine if the contractor is performing in accordance with the
            terms and provisions of the contract. Additionally, Standards for Internal Control
            in the Federal Government, issued by the United States General Accounting
            Office (GAO), discusses Amonitoring@ and states that AInternal control should
            generally be designed to assure that ongoing monitoring occurs in the course of
            normal operations. It is performed continually...@

            A review of the records maintained by the project manager showed that the
            earliest inspection was at 6:30 am and the latest at 5:00 pm. The lack of
            inspections during non-business hours exposes headquarters personnel and




                                                4
                   Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training

            facilities to a heightened security risk. Without inspections during non-business
            hours, there is no assurance that security guards are awake and performing their
            assigned duties and that guard posts are adequately staffed in accordance with
            the terms of the contract.

Recommendation:

     OIG recommends that the Executive Director for Operations:

     4.     Institute a program of periodic walk-around inspections for the security guard
            services contract that includes both regular business hours and non-business
            hours to include evenings, weekends, and holidays.

     B. Acquisition Workforce Training

            Acquisition workforce training is required for contract specialists (GS-1102 series,
            which includes contracting officers) and project managers. The training required
            for each of these two groups is different. NRC=s compliance with the training
            requirements for contract specialists was generally adequate. Mandatory
            acquisition training for project managers, however, is not completed timely and
            the course content needs improvement.

            B.1.   Project Manager Mandatory Training is Not Completed Timely

            Contrary to the best practices of other Federal agencies, NRC permits its staff to
            serve as project managers prior to completing required training. NRC=s
            Acquisition Certification and Training Program mandates specific acquisition
            training for project managers and prescribes time frames within which the training
            must be completed. The mandatory training is frequently not completed within
            the prescribed time frames because of the lack of a central database, inadequate
            monitoring, and infrequent course offerings. Consequently, project managers are
            not receiving training that is vital to an effective management control system over
            acquisition. This increases the agency’s exposure to procurement fraud, waste,
            and abuse.

            NRC=s Project Manager Training Requirements

            The Office of Federal Procurement Policy (OFPP), part of the Office of
            Management and Budget (OMB), was created to lead government agencies in
            the area of procurement. OFPP Policy Letters 92-3 and 97-01 provide guidance
            on the education, training, and experience required for acquisition personnel.

            According to the OFPP guidance, the term acquisition workforce includes all
            positions in the General Schedule (GS-1102) contracting series, all contracting
            officers, all positions in the GS-1105 purchasing series, and Contracting Officer
            Representatives/Contracting Officer Technical Representatives.




                                                5
                  Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training



          In July 2000, Contracts/ADM issued a memorandum that revised NRC’s
          Acquisition Career Development Program to reflect OFPP’s revisions to the
          qualification standard for individuals in the GS-1102 contract specialist series. In
          addition, Contracts/ADM oversees agency acquisition training for project
          managers through the Acquisition Certification and Training Program. The
          Contracts Acquisition Career Development Program Manager is responsible for
          overseeing the day-to-day administration of the program which includes certain
          mandatory and highly recommended courses.

          NRC=s Executive Director for Operations approved the agency=s Acquisition
          Certification and Training Program on May 12, 2000. The training program
          requires that project managers be certified by completing five specific acquisition
          courses. These five mandatory courses and other courses included in the
          program are listed in Appendix D. So as not to have an adverse impact on the
          agency=s other program goals at that time, the original certification deadline was
          October 1, 2001. New project managers are currently given up to six months to
          complete the required courses. In summary, to complete the mandatory training,
          NRC allowed project managers appointed prior to April 1, 2001 (Group 1),
          anywhere from more than 6 months to 162 months (depending on the date
          appointed) and allowed project managers appointed after March 31, 2001
          (Group 2), 6 months.

          On October 2, 2000, the NRC Executive Director for Operations amended the
          Acquisition Certification and Training Program requirements by adding two
          additional mandatory training courses (see Appendix D) for employees who have
          a significant role in the acquisition of IT products and/or services. The guidance
          became effective on January 1, 2001, and originally allowed IT project managers
          one year to complete the training. Those new to project management are
          currently given up to six months to complete the required IT courses. In FY 2004,
          the two mandatory IT courses have been combined into one course.

          Noncompliance with NRC=s Prescribed Time Frames

          The mandatory training is frequently not completed within the prescribed time
          frames. As of July 2003, there were 144 project managers10 who should have
          completed the mandatory training modules.




10
     Project managers who were grand fathered into the program and/or who work for the OIG are excluded.


                                                6
                         Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training

                         Group 1 - Project Managers Appointed Prior to April 1, 2001

               As shown below, 69 percent of the 120 project managers had completed the five
               mandatory acquisition courses (within a range of from more than 6 months to
               162 months of appointment). As of July 2003, 22 percent (26 project managers)
               had not completed the training and 9 percent (11 project managers) completed
               the training after the deadline.


                          Group 1
       Project Manager Training - 5 Mandatory Courses
         (Training Required from >6 to 161/2 Months)

                                 Not Completed
                              26 Project Managers
                                      22%



                     Completed After Deadline
                       11 Project Managers
                               9%

                                                                                     Met Deadline
                                                                                 83 Project Managers*
                                                                                         69%
120 current Project Managers (appointed prior to
April 1, 2001)

*Includes 28 Project Managers who completed 5 mandatory
 courses prior to appointment.




                                                          7
                         Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training

                         Group 2 - Project Managers Appointed After March 31, 2001

               As shown below, 13 percent of the 24 project managers had completed the five
               mandatory acquisition courses within six months of appointment. As of
               July 2003, 74 percent (18 project managers) did not complete the training and
               13 percent (3 project managers) completed the training after the deadline.


                                  Group 2
               Project Manager Training - 5 Mandatory Courses
                     (Training Required within 6 Months)
                                                                         Met Deadline
                                                                      3 Project Managers*
                                                                              13%

                                                                          Completed After Deadline
                                                                            3 Project Managers
                                                                                   13%

                            Not Completed
                         18 Project Managers
                                 74%
24 current Project Managers (appointed after March
31, 2001 and appointed for > 6 months)

*Includes 1 Project Manager who completed 5
 mandatory courses prior to appointment.




                                                      8
                         Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training

                         Groups 1 and 2 Combined

                As shown below, overall, 59 percent of the 144 project managers had completed
                the five mandatory acquisition modules within the deadline. As of July 2003,
                31 percent (44 project managers) had not completed the training and 10 percent
                (14 project managers) completed the training after the deadline.


                         Groups 1 and 2 Combined
               Project Manager Training - 5 Mandatory Courses
                                   (Total)

                               Not Completed
                            44 Project Managers
                                    31%




                                                                                  Met Deadline
                       Completed After Deadline                               86 Project Managers*
                         14 Project Managers                                          59%
                                 10%
144 current Project Managers (appointed for > 6
months)

* Includes 29 Project Managers who completed
  5 mandatory courses prior to appointment.




                         Information Technology Acquisition Training Courses

                Project manager compliance with the requirements for completing the IT
                acquisition training courses could not be determined due to the lack of auditable
                data. No central database exists which indicates which project managers are
                required to take the IT courses.


                Reasons for Noncompliance with Agency Time Frames

                The mandatory training is frequently not completed within the prescribed time
                frames because of the lack of a central database, inadequate monitoring, and
                infrequent course offerings.

                         Lack of a Central Database

                There is no central database containing the information needed to track project
                manager compliance with the requirements of the Acquisition Certification and
                Training Program. ADM’s Contract Tracking System contains the names of


                                                      9
                         Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training

                 project managers and the execution date(s), which according to DC officials,
                 represents the date(s) each project manager began serving as a project manager
                 for administration of a particular contract. There is no indication as to which
                 project managers are required to take the mandatory IT acquisition training. The
                 Office of Human Resources (HR) has a separate database of the training courses
                 individuals have completed (including the acquisition courses). To determine
                 compliance with the timeliness requirement for the five mandatory acquisition
                 training courses, one must refer to both of these independent databases.

                         Inadequate Monitoring

                 GAO’s Standards for Internal Control in the Federal Government states that
                 Amonitoring@ is one of the five standards of internal control and explains the
                 importance of ongoing monitoring. Due to the lack of a central database
                 containing project manager training information, agency offices have developed
                 their own databases in an effort to monitor compliance with the requirements of
                 the Acquisition Certification and Training Program. Review of the databases
                 used by four large NRC offices revealed that the databases are duplicative and
                 ineffective. Each of the databases merely monitored completion of the individual
                 training courses without regard to timeliness requirements and without indication
                 as to whether the individual project managers are required to take the mandatory
                 IT acquisition training.

                         Infrequent Course Offerings

                 The mandatory training courses are not always offered frequently enough to allow
                 project managers to complete the training within the prescribed six-month period.
                 For example, in FY 2004, of the five required acquisition courses, two have seven
                 months between course offerings and two have eight months between course
                 offerings. This means that four of the five required courses are not offered
                 frequently enough.

                 Increased Risk of Procurement Fraud

                 Contrary to the best practices of two other Federal agencies,11 NRC permits its
                 staff to serve as project managers prior to completing required training. This
                 policy, coupled with the agency=s high level of noncompliance with its own
                 prescribed time requirements for project manager completion of mandatory
                 training, increases the agency=s risk of exposure to procurement fraud, waste
                 and abuse.




        11
           The two other Federal Agencies contacted for bench marking purposes are the National Science
Foundation and the U.S. Department of State.


                                                      10
                   Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training

Recommendations

     OIG recommends that the Executive Director for Operations:

     5.     Revise the NRC policy to require staff to complete all mandatory acquisition
            training prior to appointment as a project manager and require the Director of the
            Division of Contracts to approve any temporary waivers.

     6.     Develop and maintain a central database to include for each current project
            manager:

            •   The date certified as a project manager; and

            •   The date certified as a project manager with significant responsibility for
                information technology acquisition, if applicable.

     7.     Include in the central database the following information for project managers
            who are serving under a waiver:

            •   A list of each Acquisition Certification and Training Program course
                completed,

            •   The date each course was completed, and

            •   The expiration date of the waiver.

     8.     Make the project manager database available for query by NRC offices or provide
            a monthly status report to each office.


     9.     Review the schedule of mandatory course offerings and revise it, as necessary,
            to achieve compliance with agency requirements.

            B.2. Course Content of Project Manager Acquisition Training Needs
            Improvement

            The course content of NRC’s project manager acquisition training needs
            improvement. Specifically, in some cases training materials are not
            comprehensive and/or contain certain information that is either obsolete or
            incorrect based on current FAR requirements. The out-of-date content of project
            manager acquisition training courses impairs the quality of the training, which, in
            turn, increases the risk that improprieties in the NRC acquisition process will go
            undetected.

            Attributes of Effective Training Materials

            The 12 courses (formerly 13) that comprise the NRC Acquisition Certification and
            Training Program are listed in Appendix D. To be optimally effective, the training
            materials must be current, accurate and complete and be sufficiently

                                                11
                          Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training

                 comprehensive to serve as a detailed reference source for future use.
                 Furthermore, the training materials must be in consonance with current
                 procurement laws, acquisition regulations and agency policy. In addition,
                 procurement fraud training is a vital component of any acquisition training
                 program.

                 Course Content

                 The course content of NRC’s project manager acquisition training needs
                 improvement. Specifically, some training materials are not comprehensive and
                 contain information that is either obsolete or incorrect based on current
                 requirements such as the FAR. An Office of the General Counsel (OGC) official,
                 in coordination with the OIG, reviewed the content of the training manuals for 11
                 of the 12 courses (formerly 13)12 that comprise the NRC Acquisition Certification
                 and Training Program. Identified deficiencies are summarized in Appendix E.
                 For example, the training manual for Acquisition Workshop 5, Negotiation of
                 Project Terms and Conditions, states that only “significant deficiencies” need to
                 be pointed out during negotiations. However, GAO protest decisions and
                 FAR 15.306, Exchanges with Offerors After Receipt of Proposals, require that all
                 weaknesses, that would have an impact on the rating award selection, must be
                 discussed with each offeror in the competitive range. As another example, the
                 training manual for Acquisition Workshop 11, Acquisition for Supervisors and
                 Managers of Project Managers, suggests that under the “Urgency” exception it is
                 optional to solicit more than one vendor. However, the Competition in
                 Contracting Act and the FAR require that as many sources as practicable be
                 solicited. The details of the identified deficiencies were furnished to Contracts
                 officials for their consideration.

                 Coordination of Course Updates

                 Acquisition training course updates for the above mentioned eleven courses are
                 prepared by an NRC contractor. The updates are routinely reviewed by agency
                 officials working in HR (Human Resources Development Team) and ADM
                 (Agency Acquisition Career Development Program Manager). While the NRC’s
                 OGC employs attorneys who possess significant acquisition expertise, they are
                 generally not consulted regarding the adequacy of the course updates. At OIG’s
                 suggestion, OGC officials expressed support for amending the practice of
                 coordinating acquisition training course updates to routinely include OGC. In this
                 manner, the quality and effectiveness of the training materials will be enhanced
                 as a result of the insights and contributions that OGC attorneys can provide.

                 Procurement Fraud Training

                 Procurement fraud training represents an important area of course content in
                 need of improvement. Presently, NRC’s Acquisition Certification and Training
                 Program contains only limited coverage of procurement fraud training in

        12
           The content of the two courses dealing with IT acquisitions was not reviewed. In FY 2004, the two
mandatory IT courses have been combined into one course.


                                                       12
                   Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training

            Acquisition Workshop 1, the Overview course. The Association of Certified Fraud
            Examiners, Contract and Procurement Fraud Course, states in part,
            “Procurement Fraud is certainly the most common and costly of the white-collar
            crimes that impact private businesses and corporations. It also is probably the
            most serious problem affecting government agencies...” In light of NRC’s large
            annual procurement expenditures, NRC would benefit by providing its project
            managers with additional mandatory procurement fraud training. Since NRC
            primarily contracts for services, the additional training should focus on
            procurement schemes and fraud indicators with an emphasis on labor
            mischarging. The additional training would heighten agency project managers’
            fraud awareness and better enable them to protect the agency from improprieties
            in the acquisition process.

            At OIG’s suggestion, agency efforts have been initiated to add additional
            mandatory procurement fraud training to the Acquisition Certification and Training
            Program curriculum. Specifically, NRC officials expressed intentions to expand
            mandatory Acquisition Workshop 6, Contract Administration, to include
            procurement fraud training.

            Increased Risk of Acquisition Improprieties

            The absence of effective coordination of acquisition training course updates and
            the inclusion of only limited procurement fraud training in the NRC’s Acquisition
            Certification and Training Program curriculum results in project manager training
            courses with out-of-date content. This, in turn, increases the risk that
            improprieties in the NRC acquisition process will go undetected. In effect, the
            project managers are not receiving all necessary training vital to an effective
            control system over acquisition.

Recommendations

     OIG recommends that the Executive Director for Operations:

     10.    Update the Acquisition Certification and Training Program courses to correct the
            deficiencies outlined in Appendix E.

     11.    Coordinate future updates to the Acquisition Certification and Training Program
            courses (excluding the courses on Information Technology acquisitions) with the
            Office of the General Counsel.

     12.    Enhance mandatory procurement fraud training in the Acquisition Certification
            and Training Program curriculum.




                                                13
Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training




             [Page intentionally left blank.]




                             14
                    Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training


IV. CONSOLIDATED LIST OF RECOMMENDATIONS

  OIG recommends that the Executive Director for Operations:

  1.     Official Use Only Paragraph Redacted



  2.     Official Use Only Paragraph Redacted



  3.     Official Use Only Paragraph Redacted



  4.     Institute a program of periodic walk-around inspections for the security guard
         services contract that includes both regular business hours and non-business hours
         to include evenings, weekends, and holidays.

  5.     Revise the NRC policy to require staff to complete all mandatory acquisition training
         prior to appointment as a project manager and require the Director of the Division of
         Contracts to approve any temporary waivers.

  6.     Develop and maintain a central database to include for each current project
         manager:

                •   The date certified as a project manager; and

                •   The date certified as a project manager with significant responsibility for
                    information technology acquisition, if applicable.

  7.     Include in the central database the following information for project managers who
         are serving under a waiver:

                •   A list of each Acquisition Certification and Training Program course
                    completed,

                •   The date each course was completed, and

                •   The expiration date of the waiver.

  8.     Make the project manager database available for query by NRC offices or provide a
         monthly status report to each office.

  9.     Review the schedule of mandatory course offerings and revise it, as necessary, to
         achieve compliance with agency requirements.


                                                 15
                Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training

10.   Update the Acquisition Certification and Training Program courses to correct the
      deficiencies outlined in Appendix E.

11.   Coordinate future updates to the Acquisition Certification and Training Program
      courses (excluding the courses on Information Technology acquisitions) with the
      Office of the General Counsel.

12.   Enhance mandatory procurement fraud training in the Acquisition Certification and
      Training Program curriculum.




                                             16
              Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training

                                                                                        Appendix A
SCOPE AND METHODOLOGY

       To accomplish the audit objectives, the OIG reviewed and analyzed pertinent
       laws, regulations, authoritative guidance and prior relevant GAO reports. In
       addition, OIG identified, analyzed and compared NRC=s guidance with the
       aforementioned criteria. OIG conducted interviews with selected NRC officials to
       gain an understanding of both the agency=s contract administration/oversight
       practices for selected contracts and the agency=s acquisition workforce training
       program. Interviews were conducted to determine current issues, problems,
       known deficiencies and to assess management controls. OIG interviewed
       personnel from most Headquarters= offices and three Regions. For bench
       marking purposes, OIG contacted certain other Federal Agencies and obtained
       information about acquisition workforce training best practices.

       Based on risk assessment factors developed by the OIG, a sample of ten active
       contracts (see Appendix B) was selected from the universe of FY 2002 contract
       actions. Auditors summarized the key terms and provisions of the ten contracts
       and performed various tests of the contract administration/oversight of the
       selected contracts. OIG also conducted various compliance tests of acquisition
       workforce training requirements.

       OIG reviewed and analyzed management controls related to the audit objectives.
       OIG conducted this audit in accordance with Generally Accepted Government
       Auditing Standards from May through October 2003.

       The major contributors to this report were Steven Zane, Team Leader; Kathleen
       Stetson, Audit Manager; Michael Steinberg, Senior Auditor; and Susan Jones,
       Auditor. OIG acknowledges contributions to this audit by Office of the General
       Counsel officials.




                                           17
Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training




             [Page intentionally left blank.]




                             18
        Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training

                                                                                  Appendix B

               CONTRACTS SELECTED FOR REVIEW



        Contract No. /                        Vendor                    FY 2002 Obligations
        Project Office

1    04-02-054                                                                       $2,401,924
     NMSS                       Information Systems Labs

2    26-00-307                  Digital Net                                              587,042
     IRO

3    03-98-021                                                                         1,029,099
     NRR                        Beckman & Associates

4    21-01-309                                                                           407,000
     ASB                        Neal R. Gross & Co.

5    33-01-175                                                                           109,712
     CIO                        FileNet

6    10-99-141                                                                         1,440,640
     ADM                        NVT

7    10-03-153                                                                         2,838,395
     ADM                        Wackenhut Security Svc.

8    33-01-182                                                                         8,913,829
     CIO                        OAO

9    33-01-189                                                                         1,666,538
     CIO                        Information Manuf. Corp

10   01-0290                                                                         10,037,650
     CIO                        EER Systems, Inc. -10 POs

     Total                                                                          $29,431,829




                                     19
Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training




             [Page intentionally left blank.]




                             20
                    Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training

                                                                                              Appendix C

FEDERAL ACQUISITION REGULATION CLAUSES

     52.232-18 Availability of Funds.
     As prescribed in 32.705-1(a), insert the following clause:

                               Availability of Funds (Apr 1984)

     Funds are not presently available for this contract. The Government's obligation
     under this contract is contingent upon the availability of appropriated funds from
     which payment for contract purposes can be made. No legal liability on the part of
     the Government for any payment may arise until funds are made available to the
     Contracting Officer for this contract and until the Contractor receives notice of
     such availability, to be confirmed in writing by the Contracting Officer.

                                           (End of clause)

     52.232-19 Availability of Funds for the Next Fiscal Year.
     As prescribed in 32.705-1(b), insert the following clause in solicitations and
     contracts if a one-year indefinite-quantity or requirements contract for services is
     contemplated and the contract (a) is funded by annual appropriations and (b) is to
     extend beyond the initial fiscal year (see 32.703-2(b)):

                 Availability of Funds for the Next Fiscal Year (Apr 1984)

     Funds are not presently available for performance under this contract beyond
     ________. The Government's obligation for performance of this contract beyond
     that date is contingent upon the availability of appropriated funds from which
     payment for contract purposes can be made. No legal liability on the part of the
     Government for any payment may arise for performance under this contract
     beyond _____, until funds are made available to the Contracting Officer for
     performance and until the Contractor receives notice of availability, to be
     confirmed in writing by the Contracting Officer.

                                           (End of clause)




                                                 21
Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training




             [Page intentionally left blank.]




                             22
                    Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training

                                                                                              Appendix D

                 Acquisition Certification and Training Program Courses


Mandatory Training Module Workshops

Acquisition Workshop 1:          Overview
Acquisition Workshop 2:          Developing an Independent Government Cost Estimate
Acquisition Workshop 6:          Contract Administration
Acquisition Workshop 9:          Organizational Conflict of Interest
Acquisition Workshop 10:         Preparing Statements of Work


Mandatory Training Module Workshops - Information Technology Acquisitions

Capital Planning and Investment Control (CPIC) and System Development and Life-Cycle
Management (SDLCM)


Highly Recommended Non-Mandatory Training Module Workshops

Acquisition Workshop 3:          Developing Proposal Evaluation Criteria
Acquisition Workshop 4:          Source Evaluation Panel Procedures
Acquisition Workshop 5:          Negotiation of Project Terms and Conditions
Acquisition Workshop 7:          Property Management
Acquisition Workshop 8:          Closing Out the Contract
Acquisition Workshop 11:         Acquisition for Supervisors and Managers of Project Managers




                                                 23
                                                                                      Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training



                                                                                                                                                                                Appendix E
                                                                  DEFICIENCIES IN TRAINING COURSES

                                     Additional Information Needed                               Obsolete Information                                      Incorrect Information

Acquisition Workshop 3:           Cost realism is discussed, but a key part of cost   "Focused Source Selection is discussed, but the      Information suggesting that the competitive range is
Developing Proposal Evaluation    realism - determining the "most probable cost"      NRC no longer conducts nor maintains the             determined only from "scores and ratings" and would
Criteria                          of an unrealistic cost proposal is not discussed.   website.”                                            include offerors who have a "reasonable chance of award"
                                  "Price realism" is not discussed. No mention of                                                          is in error and contrary to current FAR provisions.
                                  the difference between "price realism" and "cost
                                  realism."

Acquisition Workshop 5:           The FAR standard is to award without                Auctioning is characterized as prohibited.           The training manual states that only "significant
Negotiation of Project Terms      negotiations, but this is not made clear in the     However FAR no longer has an express                 deficiencies" need to be pointed out during negotiations.
and Conditions                    materials.                                          prohibition against auctioning.                      However, GAO protest decisions and FAR 15.306 require
                                                                                                                                           that all weaknesses must be discussed with each offeror
                                                                                                                                           in the competitive range.
                                                                                                                                           Technical leveling is incorrectly defined. Additionally, it is
                                                                                                                                           not mentioned in the current FAR.

Acquisition Workshop 4: Source    OGC provided substantial additional comments        The training materials are not up to date with the
Evaluation Panel (SEP)            to the Division of Contracts in January 2003, but   most recent version of MD 11.1.
Procedures                        the materials have not been updated to
                                  incorporate them.

Acquisition Workshop 11:                                                              "Known Sources (Exceptions Permitted Under the       Training materials suggest that under the "Urgency"
Acquisition for Supervisors and                                                       Procurement Reinvention Laboratory)" is no           exception it is optional to solicit more than one vendor.
Managers of Project Managers                                                          longer authorized.                                   The Competition in Contracting Act and FAR "Urgency"
                                                                                                                                           exception require that as many sources as practicable be
                                                                                                                                           solicited.

Acquisition Workshop 9:           NRC's unique statutory Conflict of Interest (COI)
Organizational Conflict of        provisions are not adequately addressed.
Interest
                                  COI waiver procedures (MD 11.1, Handbook
                                  Part II) and examples of documenting waiver of
                                  COI are not included.

Acquisition Workshop 2:           Statutory fee percentage limitations for cost
Developing an Independent         type contracts are not discussed.
Government Cost Estimate
                                  Developing an Independent Government Cost
                                  Estimate for other Federal agencies (non-DOE)
                                  is not discussed.



                                                                                                24
       Review of NRC’s Administration of Selected Contracts and Acquisition Workforce Training




[Page intentionally left blank.]




              25
